Department of Health and Human Services
              OF OFFICE
   INSPECTOR GENERAL





     OUTPATIENT SURGERY

      MEDICAL NECESSITY

     AND QUALITY OF CARE





              UWICES.


                        Richard P. Kusserow
                        INSPECTOR GENERAL

        1-
                           FEBRUARY 1991
             qYd:m
                             OFFICE OF INSPECTOR GENERAL

 The mission of the Office of Inspector General (OIG), as madated by Public Law 95- 452 , as
 amended, is to protect the integrty of the Deparent of Health and Human Services ' (HHS)
 programs as well as the health and welfare of beneficiares served by those programs. This
 statutory mission is cared out through a nationwide network of audits , investigations , and
 inspections conducted by three OIG operating components: the Office of Audit Services , the
 Offce of Investigations , and the Office of Evaluation and Inspections. The OIG also informs the
 Secretary of HHS of program and management problems and recommends courses to correct
 them.

                               OFFICE OF AUDIT SERVICES
The OIG' s Offce of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
caring out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste , abuse, and
mismanagement and to promote economy and effciency throughout the Deparment.

                              OFFICE OF INVESTIGATIONS
The OIG' s Offce of Investigations (01) conducts criminal , civil , and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiares and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions
administrative sanctions ,or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

                    OFFICE OF EVALUATION AND INSPECTIONS
The OIG' s Offce of Evaluation and Inspections (OEI) conducts short- term management and
program evaluations (called inspections) that focus on issues of concern to the Deparment, the
Congress , and the public. The findings and recommendations contained in the inspections
reports generate rapid, accurate, and up-to- date information on the effciency, vulnerability, and
effectiveness of departmental programs. The report was prepared under the diection of
Kaye D. Kidwell , Regional Inspector General , and Paul A. Gottlober, Deputy Regional Inspector
General , Office of Evaluation and Inspections, Region IX. Paricipating in this project were the
following staff:

Deborah Harvey, 
   Project Leader           Brad Rollin
Mollyann Brodie Lead Analyst                 Alicia Simon
Ruth Carlson                                 W. Mark Krshat   Headquarters
Robert Gibbons                               Wayne Powell Headquarters
Corrnne Harol                                Renee Schlesinger Region II
Cynthia Lemesh

Medical review was completed by Forensic Medical Advisory Service under a contract with the
OIG.
Department of Health and Human Services

                  OFFICE OF

   INSPECTOR GENERAL





     OUTPATIENT SURGERY

      MEDICAL NECESSITY

     AND         OF CARE
                  QUALITY




              f,RVICES'


                            Richard P. Kusserow
                            INSPECTOR GENERAL
       '0

            1- OEI-
            ~qYd:m
                                  09- 88- 01000
                    EXECUTIVE SUMMARY

 PURPOSE

This report compares the medical necessity and quality of care of selected outpatient surgeries
rendered to a 1988 sample of Medicare beneficiares in ambulatory surgical centers (ASCs) and
hospital outpatient deparments (OPDs).

This report is the second in a series on outpatient surgery. The first report, issued December
1989, discussed beneficiar satisfaction.



BACKGROUND

Over the past 8 years, the most common setting for surgery has shifted from the inpatient
department of the acute care hospital to the OPDs and ASCs. In par, this shift has resulted from
advances in medical technology (which have made the ambulatory setting a safer surgical
environment), improvements in anesthesia techniques and decreases in the length of
postoperative care.

Although most outpatient surgery continues to be performed in OPDs, the number of ASCs and
their share of the outpatient surgery market are increasing. From 1984 through 1989 , the number
of ASCs increased over 300 percent. Between 1988 and 1989 alone , the number of free-standing
ASCs increased by 27 percent. As of April 1990 , there were 1 177 Medicare-certified ASCs.
The rapid ASC growth presented hospitals with a business challenge, to which they responded
by increasing the number of OPDs providing outpatient surgery. Although the hospitals perform
more outpatient than inpatient surgeries, they are losing their outpatient surgery market share to
ASCs. The hospital share has decreased from 89 percent in 1984 to about 76 percent in 1989.

Prior to 1985, outpatient quality of care was not under review by peer review organizations
(PROs). Subsequently, several legislative bils expanded the PRO authority to include outpatient
quality of care review. In April 1989 , the PROs completed implementation of 100 percent
pre procedure and 5 percent retrospective review of at least 10 nonemergency inpatient or
outpatient surgical procedures. The surgeries selected for this inspection were performed before
the national implementation of PROs ' preprocedure review.


METHODOLOGY

For this inspection , we selected 4 high-volume Medicare outpatient surgical procedures from
10 States and reviewed the appropriateness of setting, medical necessity and quality of care for
each surgery. We selected cataract surgery with intraocular lens (IOL) implant , upper
gastrointestinal (GI) endoscopy, colonoscopy and bunionectomy. We identified the 10 States
that had the highest number of ASCs and selected a random sample of 1 170 Medicare
beneficiares, hal of whom had their surgeries in ASCs and half in OPDs. Since there were only
eight bunionectomies in our sample, we excluded them from the analysis and have not included
any information about them in this report. All procedures were performed between Januar and
March 1988. We collected the medical records from both the surgeons and the facilities and
used an independent medical review contractor to review the records. The contractor used
physician specialists to develop the procedure-specific criteria. The physicians then reviewed
each record for appropriateness of outpatient setting, medical necessity and quality of care.
addition , we interviewed several professional medical associations and a sample of ASC and
OPD physicians in each specialty to identify currently acceptable standards for medical necessity
and quality of care.

Based on information we received from Medicare carers, we identified 84 ophthalmologists
who received more than $1 milion in 1987. We compared the medical necessity and quality of
care for their patients with the patients of non- high volume ophthalmologists.


FINDINGS

      The Outpatient Setting Was Appropriate.

The medical reviewers determned that the outpatient setting was appropriate for 99. 5 percent of
the surgeries and inappropriate for only 0. 5 percent.

      While Most Surgeries Were Medically Necessary, Reviewers Questioned More Than
      23 Percent Of Upper GI Endoscopies.



The reviewers determined that 23. 3 percent of the upper GI endoscopies, 7. 7 percent of the
colonoscopies and 1.7 percent of the cataract cases were medically unnecessar.

     Approximately    14   Percent Of The Beneficiaries Had Poor Or Questionable Care.

The reviewers determined that 85. 6 percent of the beneficiares had adequate care
 7 percent had poor care and 11.7 percent had questionable care.

     High Volume Ophthalmologists Are More Likely To Provide Medically Unnecessary
     Services And Render Poor Or Questionable Care.

High volume ophthalmologists (i. e., those who earn at least $1 milion annually) have almost
twice the rate of medically unnecessar surgery and questionable care as non- high volume
ophthalmologists.
RECOMMENDATIONS

      The HCF A Should Add Upper GI Endoscopies To The PRO Review List Of
      Recommended Procedures.

Our study revealed that more than 23 percent of the upper GI endoscopies were medically
unnecessar and almost 6 percent of the endoscopy patients had poor care. Therefore, we
recommend that HCFA should add upper GI endoscopy to the PRO preprocedure review list of
recommended procedures.

      The HCF A Should Intensify Review Of High Volume Ophthalmologists.

By intensifying review of high volume ophthalmologists, HCFA could more easily identify both
questionable practice patterns and ophthalmologists who are providing unnecessar services or
render poor quality cataract surgery.


AGENCY COMMENTS

The HCFA disagreed with the draft report s recommendations to (1) include upper GI endoscopy
on the mandatory PRO preprocedure review list and (2) intensify the review of high volume
ophthalmologists. According to HCFA , it would not be cost effective to mandate PRO review of
upper GI endoscopies. The HCFA suggested adding the procedure to the recommended review
list rather than the mandatory review list. According to HCFA , intensified review of high
volume ophthalmologists is not necessar because the current preprocedure mandatory review of
cataract surgery is sufficient.

The complete text of the comments is contained in appendix D.


OFFICE OF INSPECTOR GENERAL RESPONSE

Based on HCFA' s comments, we have modified our recommendation concerning upper GI
endoscopies. Our recommendation now states that upper GI endoscopies should be included on
the recommended preprocedure review list rather than the mandatory list.

We continue to be concerned about high volume ophthalologists and believe that a more
intensive review of their services is waranted. This could be accomplished in any of a number
of different ways, including (1) a preprocedure PRO review that is more intensive than currently
conducted , (2) a postprocedure PRO review, (3) establishment of carer screens that trigger pre-
or postprocedure carer review or (4) a combination of any of the above or similar methods.
                              ...... .................. ....
                                                         ..................
                                                ..............    ......
                                                                .... ...... ..........
                                                                            .... ...... ....
                                                                                        ............  ..........
                                                                                                .............      ......
                                                                                                ........................
                                                                         ..............................................
                                                                                                                 ....     ............
                                                                                                                 ............  ......
                                                                                                                        ........
                                                                                                                      ..........          ...............
                                                                                                                            ......................
                                                                                                                                 ..........
                                                                                                                                 ....          ........... ..
                                                                                                                                          .............
                                                                                                                                        ......
                                                                                                                                            ........




                        TABLE OF CONTENTS


EXECUTIVE SUMMARY

INTR     0 D U   CTI    0 N




FIND    IN G S    .................................................................................................................. 4

       The Outpatient Setting Was Appropriate ................................................

       While Most Surgeries Were Medically Necessary, Reviewers Questioned
       More Than 23 Percent of Upper GI Endoscopies.......................................


       Approximately 14 Percent of the Beneficiaries Had Poor
       or Q uesti onabl e Care ..

       High Volume Ophthalmologists Are More Likely to Provide

       Medically Unnecessary Services and Render Poor

       or Q uesti onabl e Care ..

REC 0 MMEND A TI 0 NS ........ ................ ........ ........ ......

ENDNOTES........................................ .............. ...........

APPENDICES

       Appendix A: Methodology .... ................................................................ .... ..                                              - 1


       Appendix B: Medical Review Criteria ............................................... B - 1


       Appendix C:            B i bliogra phy ........................................................................                               C - 1


       Appendix D: Agency Comments ............................................................... D - 1


       Appendix E: American            Society for Gastrointestinal
                              Endoscopy Letter .................................................................                                         - 1
                             INTRODUCTION

BACKGROUND

Over the past 8 years, the most common setting for surgery has shifted from the inpatient
deparent of the acute care hospital to the outpatient deparment of the hospital (OPD) and
ambulatory surgical center (AS C). In par, this shift has resulted from advances in medical
technology (which have made the ambulatory setting a safer surgical environment),
improvements in anesthesia techniques and decreases in the length of postoperative care. The
1983 changes in Medicare inpatient reimbursement under the prospective payment system (PPS)
also contrbuted to the shift to the outpatient setting.

Although most outpatient surgery continues to be performed in OPDs , the number of ASCs and
their share of the outpatient surgery market is increasing. Since the Health Care Financing
Administration (HCFA) first certified ASCs to receive Medicare reimbursement under the
Omnibus Budget Reconciliation Act (OBRA) of 1980, the number of ASCs increased
300 percent from 1984 through 1989. Between 1988 and 1989 alone, the number of
free-standing ASCs increased by 27 percent.
                                            1 As of Apri 1990 , there were 1 177 certified ASCs
in the Medicare program. The rapid ASC growth presented the hospitals with a business
challenge. They responded by increasing the number of OPDs providing outpatient surgery.
Although the hospitals perform more outpatient than inpatient surgeries, they are losing their
outpatient surgery market share to ASCs. The hospital share has decreased from 89 percent of
the market in 1984 to 76 percent in 1989.

Medicare regulations do not specificaly define medical necessity or quality of care. The
concepts are characterized as providing adequate care accordig to the practices of the medical
community. Section 1862(a)(1)(A) of the Social Security Act states that no payment may be
made under par A or par B for services that are not reasonable and necessar. In recent years,
many professional organizations, such as the American Academy of Ophthalmology, have issued
guidelines to their members outlining medical necessity criteria and suggesting standards of care.

Prior to 1985 , the peer review organizations (PROs) were not responsible for reviewing
outpatient qualty care. Several legislative bils expanded the PRO authority since that time
includig the Consolidated Omnibus Reconciliation Act (COBRA) of 1985 and the Sixth
Omnibus Budget Reconciliation Act (SOBRA) of 1986. The COBRA authorized PROs to deny
payment for questionable care while SOBRA mandated PROs to review quality care in postacute
and ambulatory care settings, including OPDs and hospital- affiliated ASCs. In April 1989 , the
PROs completed implementation of 100 percent preprocedure review of at least
10 nonemergency inpatient or outpatient surgical procedures. The PROs were given this
authority under Section 9401 of Public Law 99- 272. Cataact extraction is one of two
mandatory procedures. The PROs can choose 8 other procedures from a recommended list of
11 surgeries, or they can select other procedures based on historical data. In addition , HCFA
requires the PROs to review retrospectively the medical records for 5 percent of their
preprocedure requests on a quarterly basis. The purpose of retrospective review is to verify their



                                              page 1

determnations of medical necessity. The surgeries selected for this inspection were completed
before the national implementation of PRO preprocedure review.


PURPOSE

This report compares the medical necessity and quality of care of selected outpatient surgeries
rendered to a 1988 sample of ASC and OPD Medicare beneficiares. This report is the second in
a series on outpatient surgery. The fIrst report , issued December 1989 , discussed beneficiary
satisfaction.


METHODOLOGY

For this inspection, we selected four high-volume Medicare outpatient surgical
procedures--ataract extraction with intraocular lens (IOL) implant, upper gastrointestinal (GI)
endoscopy, colonoscopy and bunionectomy. Cataract extraction , the highest volume Medicare
outpatient procedure , is the surgical removal of a lens that has become cloudy or opaque. The
lens is most commonly replaced by an arificial lens (the IOL). Upper GI endoscopy is the
visual inspection of the esophagus , stomach and small intestine using a flexible , fiberoptic tube
inserted through the mouth. Colonoscopy is the visual inspection of the colon , which is a par
the large intestine, using a flexible, fiberoptic tube insened though the rectum. A bunionectomy
corrects the great toe displacement generally by surgically removing a bone wedge and
realigning the toe.

The universe consisted of 172 615 outpatient surgeries that were performed in 10 States between
Januar and March   1988. These were the States with the highest number of Medicare-certified
ASCs in February 1988.




                                               page 2
                         10 STATES WITH THE MOST ASCs





We selected a random sample of 1 170 Medicare beneficiares, half of whom had their surgeries
in ASCs and half in OPDs. We chose this sample size to satisfy specific statistical testing criteria
which are detailed in appendix A. Due to the smal number of bunionectomies, we excluded
these cases from all analyses leaving a universe of 1, 162 cases. Appendix A includes the details
of the sample selection.

We collected the medical records from both the surgeons and the facilities and used an
independent medical review contractor to review the records. The contractor used physician
specialists to develop the procedure-specific criteria for appropriateness of setting, medical
necessity and quality of care. Members of the American Academy of Ophthalmology and the
American Society for Gastrointestinal Endoscopy reviewed these criteria, and their suggestions
were incorporated. The criteria for each procedure are included in appendix B. The medical
reviewers then utilized the criteria and completed a narative assessment for each record. In
addition , we interviewed representatives of several professional medical associations and a
sample of ASC and OPD physicians in each specialty to identiy currently acceptable standards
for medical necessity and quality of care.

Based on infonnation we received from Medicare carers, we identified 84 ophthalmologists in
our sample who received more than $1 milion in 1987. We compared the medical necessity and
quality of care of their patients to the patients of non- high volume ophthalmologists.




                                               page 3

                                     FINDINGS

THE OUTPATIENT SETTING WAS APPROPRIATE

For the 90. 1 percent (1, 047 of 1 162 cases) that included documentation , the reviewers assessed
the outpatient setting as appropriate for 99. 5 percent (1 042 of 1 047 cases) of all procedures and
inappropriate for 0. 5 percent (5 of 1 047 cases). (See appendi A for detail concerning
documented and undocumented records. ) Physicians are not required to document in the
medical record why they chose the ASC or OPD. However, the patient s history and physical
test results wil be the basis for determning if a patient should be hospitalized. For our sample
the medical reviewers determined if the outpatient setting was appropriate using objective
criteria for each surgical procedure. The criteria included assessing the anesthesia category and
the patient s level of illness.

The outpatient setting was inappropriate for five beneficiares (0. 5 percent)--ne cataract and
four upper GI endoscopy patients. The medical review comments included the following:

      The patient has numerous medical problems. She was advised to discontinue her
      aspirin and Persantine , whether that was done with medical consultation is not
      clear from the chart, and this could have been dangerous in a person who has had
      carotid surgery three times. It is likely that this is not a good candidate for an
      outpatient setting. (ASC cataract patient)

      I am not certain that this outpatient setting, if the patient was this fragile , was
      correct, particularly since she was transferred to a hospital after the procedure....
      (ASC upper GI patient)

Overall , there was no statistically significant difference between the ASC and OPD sites for the
inappropriate cases.

There were no major differences between OPD and ASC patients in sex and average age. The
breakdown by sex for each site was similar- 35 percent male and 65 percent female in ASCs
and 36 percent male and 64 percent female in OPDs. The average age was 75. 8 years for ASC
patients and 76. 0 years for OPD patients.

The OPD patients in our sample were no sicker than the ASC patients. Sicker patients frequently
have concomitant conditions , such as diabetes, hypertension or arhythmias. If such conditions
exist , physicians exercise additional medical precaution when determining if the patient is a good
outpatient candidate. Even though 31 percent of all sampled patients had concomitant
conditions, the medical reviewers found no differences in the outcomes for these patients. Of the
five patients who should have been inpatients, only two of them had concomitant conditions.

There has been much publicity and concern expressed by the American Association of Retired
Persons (AARP) and others that patients were being forced to the outpatient setting when they



                                               page 4
          .'..................... ... --........ --....
          ."...........................................
          "'''.........................................
          . . . . . .. -- . . . . . . . . . . . . . . . . . . . . . . .. . .. . . -- . . .. ..                "-""'."""""."""'."""".'-"'.'".
                                                                                                              ..........-............--.-.......
                                                                                                                                              .....-......




preferred to b hospitalized or should have been admtted because of their medical condition. In
our telephone surey, 72 of 837 beneficiares told us they would have preferrd to stay in the
hospital overnight. Of the 72 cases, 22 were ASC patients and 50 were OPD patients.
Accordig to the medical reviewers, none of the patients ' physical conditions warted their
admssion as inpatients.


WHILE MOST SURGERIES WERE MEDICALLY NECESSARY, REVIEWERS
QUESTIONED MORE THAN 23 PERCENT OF UPPER GI ENDOSCOPIES

For the 96. 6 percent (1                          122 of 1                   162 cases) with documentation, medical reviewers deemed
93. 9 percent (1, 053 of 1 122 cases) of the surgeries medcaly necessar and 6. 1 percent (69 of
  122 cases) unnecessar. The medical reviewers analyzed the cases and determned whether the
need for surgery was appropriately and adequately substatiated. The reviewers based their
decisions on such factors as (1) the decrease in visual acuity caused by the presence of an
opacity for cataact surgery, (2) upper GI distrss which persists despite an appropriate tral of
therapy for upper GI endoscopy or (3) an abnormity identied by barum enema for
colonoscopy.

Reviewers determned that 23. 3 percent (44 of 189 cases) of the upper GI endoscopies,
  7 percent (12 of 155 cases) of the colonoscopies and 1.7 percent (13 of 777 cases) of the
cataract cases were not medically necessar.


                                     MEDICALLY UNNECESSARY SURGERIES

                                                                               Distribution by Procedure


         PERCENT



     20

     15

     10




                             Cataracts                                                            Upper GI                  Colonoscopy

                                                                                                 PROCEDURE


                                                                                   _ASC               t?OPD


                                                                                                    page 5

The 44 unnecessar upper GI endoscopies were evenly divided between ASCs and OPDs. The
usual symptoms which would necessitate the procedure include upper GI bleeding, diffculty in
swallowing, persistent vomiting, persistent hearbur or a history of growths (polyps). The most
common reasons why the surgeries were found to be medicaly unnecessar were
(1) substantiation for surgery was inadequate (29. 5 percent) and (2) symptoms did not justify the
procedure (15. 9 percent). Inadequate substatiation included cases where the patient did not
have a tral of medical therapy prior to the procedure. Inappropriate symptom cases included
ones where the endoscopy was used as a routine follow-up for a previously documented
noncancerous condition. Our fmding of more than 23 percent unnecessar endoscopies is higher
than the 17 percent reported in a Rand COrPoration study of Medicare patients who had
diagnostic upper GI endoscopies in 1981. 3 Approximately 77 percent of the cases were
performed by gastroenterologists and 23 percent were performed by general surgeons and
internists.

The 12 medically unnecessar colonoscopies were alost evenly divided between ASCs and
OPDs. Common reasons for performng a colonoscopy include rectal bleeding (technically
called occult bleeding), chronic bowel disease, a history of chronic polyps or unexplained
anemia. In our sample, the most common reason for medically unnecessary colonoscopies was
that the symptoms did not justify the procedure (66. 7 percent). For example , if the patient did
not exhibit occult blood in a stool sample and there were no other symptoms, the reviewers
deemed the procedure as medically unnecessar.

While the overall rate for unnecessar cataact surgery was low (1.7 percent), the rate for the
13 medically unnecessar cases vared between the sites- 7 percent for ASCs and 0.5 percent
for OPDs. While this difference is statistically significant , the numbers are too small for any
further analysis which adjusts for other factors such as age, sex or initial visual acuity.

We found that medical necessity could not be determined solely on the beneficiary s reported
symptoms. Of 113 upper GI endoscopy patients who reported symptoms such as heartburn and
ulcers, medical reviewers determined that only 86 of their endoscopies were medically
necessar. For the cataract cases , 3 percent of the beneficiares did not report symptoms , yet
medical reviewers found that their surgeries were necessar. In addition , of 179 beneficiares
who said that their cataracts did not hinder their daily activities, the reviewers found that 177 of
the surgeries were medically necessar.


APPROXIMATELY 14 PERCENT OF THE BENEFICIARIES HAD POOR OR
QUESTIONABLE CARE

For the 93.4 percent (1, 085 of 1 162 cases) of surgeries with documentation , 85. 6 percent of the
beneficiares (929 of 1  085 cases) had adequate care, 2. 7 percent (29 of 1 085 cases) had poor
care and 11.7 percent (127 of 1 085 cases) had questionable care. Poor care is defined as care
which does not meet the acceptable standards of the medical community. Two examples of poor
care for cataract surgeries include (1) a case where the surgery was performed on the
beneficiar s better eye and the surgery caused worse vision in that eye, and (2) a case where
more than 2 months after surgery, the beneficiar had poor vision (Snellen test of 20/100). In the


                                                page 6
latter case , the medical record indicated no reason for the poor vision , and no tests were
performed to assess the cause of the problem. Questionable care was defined as some aspect of
care which the reviewers did not find within acceptable standards, e. , if a cataract patient did
not have the basic preoperative screens or if follow-up care was not rendered in a timely manner.

Although ASCs had more cases of poor and questionable care than the OPDs, the difference
between the sites was not statistically significant. The qualty of care rates for each procedure
follow:


                            Qualiy of Care Rates by Procedure
                                          ASC                   OPD               OVERALL
 PROCEDURE


 CATARACTS
     poor                                                               1.3                   1.8
     questionable                                 16.                  12.       108         14.
     adequate                       299          81.3     324          86.      623          83.
            SUBTOTAL                368         100.      376         100.      744         100.


 UPPER GI ENDOSCOPY
     poor                                          7.4                  4.4
     questionable                                  8.4
     adequate                                    84.                   88.      161          86.
            SUBTOTAL                            100.                  100.      187         100.


 COLONOSCOPY
     poor
     questionable                                  1.3
     adequate                                    96.                   92.      145          94.
            SUBTOTAL                            100.                  100.      154        100.


                    TOTAL           540          49.      545          50.     1085        100.


The upper GI endoscopies had the highest rate of poor care in both sites , 7.4 percent of ASC and
4.4 percent of OPD cases.



                                                page 7

          . . - . . . .. . . . . . . . ...........
          .........................-.    - . -- - -- . - . . . . . . .                                 .................,..

                                                                         -. . . -. . . - . . . . . . - - --.-..............
                                                                                                         ----..............       .....................__...-...




Intraoperative and Postoperative Complications

The overal OPD intraoperative complication rate for the sample was over twice the ASC rate
(2.4 percent versus 1.0 percent), which is statisticaly signcant Catarct intraoperative
complications in our sample included vitrous loss from a posterior capsule tear and iris prolapse
from the patient moving on the operating table. Complications durng cataract surgery occured
in 3. 1 percent of ASC and 6. 1 percent of OPD cases. All introperative complications in both

sites were resolved appropriately.

Postoperative complication rates raged from 0.5 percent (1 of 202 cases) for upper GI
endoscopies to 6. 1 percent (49 of 802 cases) for cataacts. There were only 2 endoscopy
complications out of 360 upper 01 and colonoscopy cases. Durng the cataract postoperative
period, reactions may occur which range from the expected (e. g., mid pai) to the severe
(e. g., extreme pain from germ infection). The patient can minimze the expected reactions by
using nonprescription pai medication. The severe reactions can lead to serious infection or
permanent loss of eyesight , if they are not treated in a timely manner with antibiotics or other
medications. Medical literature does not contan many well-established or accepted cataract
complication rates for different reactions. A few studies cited rates of 0. 04 to 5. 7 percent for the
retention of large amounts of fluid in the cornea (corneal edema), less than 2 percent for
inflamation of the eye cavities (endophthaltis) and 2 to 3 percent for separation of the thin
lining at the back of the eye from the hard shell (retinal detachment).


                                                   CATARACT COMPLICATION RATES

                                                                                                            By Si te

        PERCENT




      6 ...........                                                                                        A"',_,-,"""'"





      2 -....

                                          Intraoperative Postoperative                 COMPLICATION TYPE

                                                                                     _ASC                                   OPD




                                                                                                               page 8

In our study, 6. 1 percent of cataact cases had postoperative complications, including protrusion
of the colored part of the eye through a corneal wound (irs prolapse), hemorrhage within the
anterior chamber (hyphema) and elevated ocular pressure. We found that the postoperative
complication rate for the sampled ASC patients was 8. 5 percent for cataract cases, while the rate
for sampled OPD patients was 4. 2 percent, which is statistically significant. Adjustments for
age, sex and initial visual acuity had no effect on the complication rate.

Cataract Cases Involving Questionable Care

There were 127 questionable care cases. The highest number (108 of 127 cases) involved
cataract surgeries. There are two main reasons why cataract cases were considered questionable:

      Inadequate preoperative tests-About      44 percent (48 of 108 questionable care cases) of
      surgeries were questioned because the medical record did not include documentation of
      basic preoperative tests, e. , A-scan , fundoscopy or tonometr.

      60- day preoperative screening-About 35 percent (38 of 108 cases) of questionable cases
      did not have preoperative ophthalmic screens completed within 60 days prior to surgery.
      The medical review criteria specified 60 days as the outside limit in order to have the most
      current data before surgery. In one case , the biometrc data used to measure the IOL
      power was documented to have occurred 5 years b fore the surgery.

Of 32 patients who had surgery in both eyes, 17 had the surgeries within 30 days. Surgeons
generaly do not operate on both eyes within such a short time span. The waiting period should
allow healing in the fIrst eye and suffcient time to rule out complications, such as infection. An
ASC patient is 3 times more likely to have both cataract surgeries within 30 days than an OPD
patient (6 percent versus 2 percent). This practice was prevalent among a few physicians. These
cases did not have higher rates of medically unnecessar surgery or quality of care problems
than the rest of the sample.

About 9. 1 percent of beneficiares did not have visual acuity improvement. We found that
patients with poor or questionable care were less likely to have visual improvement than the
patients with adequate care. There is a significant difference by site in the visual acuity
improvement of the beneficiares. This difference may be accounted for by the difference in age
and initial visual acuity. As the patients ' age increases, they were 1.4 times more likely to have
the same or worse postoperative visual acuity. Older patients were almost five times as likely to
have the same or worse postoperative vision if the initial visual acuity was 20/40 or better.

In our beneficiary survey, 11 percent (55 of 522 cases) of cataract patients reported their vision
was the same or worse after surgery. The medical reviewers, however, found that 25 percent of
this group (14 of 55 cases) had no improvement in visual acuity.




                                               page 9

HIGH VOLUME OPHTHALMOLOGISTS ARE MORE LIKELY TO PROVIDE
MEDICALLY UNNECESSARY SERVICES AND RENDER POOR OR
QUESTIONABLE CARE

About 22 percent (178 of 802 cases) of our sampled cataract patients had their surgery
performed by high volume ophthalmologists, or ophthalmology groups. These providers
received at least $1 millon from Medicare in 1987. Of the 255 ophthalologists the OIG
identified as high volume providers nationally, 84 were in our sample. Sixty- four percent of the
84 physicians are solo practitioners, and 36 percent are group practitioners. We conducted
further analysis to determine whether the quality and medical necessity of the surgeries
performed by high volume ophthalmologists differed from non- high volume ophthalmologists.

While high volume physicians do not affect the differences between OPDs and ASCs, they do
have a higher percentage of medically unnecessar, poor and questionable care cases. Within the
OPD sample , they have a higher percentage of poor and questionable care than non- high volume
ophthalmologists. Within the ASC sample, they are responsible for a greater percentage of
medically unnecessar surgeries. In addition , ASC high volume ophthalmologists operate on
patients with better preoperative visual acuity.

Compared to non- high volume ophthalmologists, the surgeries performed by high volume
ophthalmologists were:



      twice as liely to be   medically unnecessar (2. 9 percent versus 1.3 percent-not
      statistically significant),

      twice as likely to be of poor quality (3. 0 percent versus 1.4 percent-not statistically
      significant),

      more likely to be of questionable quality (19. 9    percent versus 13. 0 percent-statistically
      significant),

      less likely to have intraoperative complications (2. 9 percent versus 5. 3   percent-not
      statistically significant),

      more likely to have postoperative complications (8. 6 percent versus 5. 7 percent-not
      statistically significant),

     twice as likely to be performed on patients with a visual acuity of 20/40 or better
     (21.4 percent versus 10. 1 percent-statistically significant) and



     based on changes between pre- and postoperative visual acuity only, more likely to have
     the same or worse visual acuity (15. 6 percent versus 7. 3 percent-statistically significant).




                                               page 10

         .......................................................................................
         ......
         ..................................... .--.............. .............. .... ..... ..........




                        COMPARISON OF CATARACT PROVIDERS

                                      High Volume versus Non-High Volume


         PERCENT
   100

    80




    60




   40




   20




                 Questionable                                    ) 20/40                                Improved
                         QOC                          Vision                                             Vision
                                             MEDICAL REVIEW FINDINGS

                                       High Volume                            Non-High Volume

NOTE: QOC. Quality of Care




                                                                 page 11

                      RECOMMENDATIONS

THE HCFA SHOULD ADD UPPER GI ENDOSCOPIES TO THE PRO REVIEW LIST
OF RECOMMENDED PROCEDURES

Currently, the peer review organizations review 10 inpatient or outpatient surgical procedures on
a preprocedure and retrospective basis for quality of care. Cataract surgery is one of two
mandatory procedures. Our study revealed that more than 23 percent of the upper GI
endoscopies were medically unnecessar and almost 6 percent of the endoscopy patients had
poor care. Therefore, we recommend that HCFA add upper GI endoscopy to the PRO review list
of recommended procedures.


THE HCFA SHOULD INTENSIFY REVIEW OF HIGH VOLUME
OPHTHALMOLOGISTS

By intensifying review of high volume ophthalmologists, HCFA could more easily identify both
questionable practice patterns and ophthalmologists who . are providing unnecessar or poor
quality cataract surgery.

AGENCY COMMENTS

The HCFA disagreed with the draft report s recommendations to (1) include upper GI endoscopy
on the mandatory PRO preprocedure review list and (2) intensify the review of high volume
ophthalmologists. According to HCFA , it would not be cost effective to mandate PRO review of
upper GI endoscopies. The HCFA suggested adding the procedure to the recommended review
list rather than the mandatory review list. According to HCFA , intensified review of high
volume ophthalmologists is not necessar because the current preprocedure mandatory review of
cataract surgery is sufficient.

The complete text of the comments is contained in appendix D.


OFFICE OF INSPECTOR GENERAL RESPONSE

Based on HCFA' s comments, we have modified our recommendation concerning upper GI
endoscopies. Our recommendation now states that upper GI endoscopies should be included on
the recommended preprocedure review list rather than the mandatory list.

We continue to be concerned about high volume ophthalologists and believe that a more
intensive review of their services is waranted. This could be accomplished in any of a number
of different ways, including (1) a preprocedure PRO review that is more intensive than currently




                                             page 12

conducted, (2) a postprocedure         PRO     review, (3) establishment of carer screens that trgger pre-
or postprocedure carer           review or   (4) a combination of any of the above or similar methods.




                                                       page 13

                          ,"




                                       ENDNOTES
May 21  , 1990, p. 99.
John A. Henderson              Surgery centers continue makng inroads, Modern Healthcare,


Ibid., p. 99.

 Abstracts-     Upper GI Endoscopy: Is It Overused?"              Geriatrics,   Februar 1989, p. 98.




                                                       page 14

                                 APPENDIX A

                                      METHODOLOGY

The purpose of the study was to compare the medical necessity, qualty of care and cost of
selected Medicare outpatient surgical procedures in two settings-ambulatory surgical centers
(ASCs) and hospital outpatient deparments (OPDs). We identified the 11 States that had the
highest number of ASCs-Arzona, California, Florida, Illinois , Louisiana, Marland , North
Carolina, Ohio, Pennsylvania, Texas and Washington. These States had 61 percent of the ASCs
certified by the Health Care Financing Admnistration (HCFA) in Februar 1988. We identified
several high volume outpatient procedures on the basis of (1) the 1985 Par B Medicare Annual
Data (BMA), (2) HCFA' s 1986 ASC surey, (3) interviews with ASC administrators and
(4) input from the academic community and several medical societies. We selected four
procedures--ataract extraction with intraocular lens (IOL) implant, upper gastrointestinal (GI)
endoscopy, colonoscopy and bunionectomy.



To establish the universe of outpatient surgeries performed between Januar 1 and
March 31 , 1988 , we requested procedure code printouts from the 12 Medicare carers that
process Par B claims for the 11 States. (We chose the first quarer of 1988 to allow the
intermediares, which pay OPD claims, sufficient time to convert their claims processing systems
to incorporate the same billng codes used by the carers, which pay ASC claims. ) We manually
counted ASC and OPD surgeries for the four procedures from the printouts. We eliminated
Washington from the sample because the carer printouts did not distinguish the specific
outpatient site (ASC or OPD) for three of the four procedures-upper GI endoscopy,
co1onoscopy and bunionectomy. The universe of surgeries for the selected quarter are
distrbuted by site as follows:


                                           TABLE 1
                     Universe of Surgeries - January- March 1988
 PROCEDURE                              ASC                  OPD                 TOTAL



 Cataracts                        44299       85.       74121      61.5      118420     68.
 Upper GI Endoscopy                 4093                25712      21.3       29805      17.
 Colonoscopy                        3287                19938      16.        23225      13.
 Bunionectomy                        357                  808                  1165


    TOTALS                        52036     100.       120579     100.      172615     100.

To determne    bur sample size, we used HCFA's 5- percent threshold for peer review organization
(PRO) review of outpatient quality of care. We assumed the same threshold and set a power of
80 percent to determne a two- fold difference between ASCs and OPDs. We had an 80 percent
chance to determine if significant positive or negative diferences existed, e. g., if poor ASC
quality of care exceeded 10 percent or if it fell below 2. 5 percent when the OPD rate for poor
care was 5 percent. Using this criterion , we selected 585 surgeries in each site. We used a
computer program to generate random numbers and identified a total of 1 170 surgeries. We
selected a proportionate number of surgeries from each State based on the summed distrbution
of all outpatient surgeries in that State. Table 2 includes the State sample distrbution.



                                            TABLE 2
                           Distribution of Procedures Among States
                                             PROCEDURE GROUP
                                     Upper GI
                      Cataracts                       Colonoscopy   Bunionectomy      TOTAL
                                     Endoscopy


   STATE
   Arizona                                                    1.3
  California         160     20.           33.               40.5          75.      298    25.
  Florida            170     21.2                            13.           25.      206     17.
  Ilinois
  Ohio
  Louisiana
  Maryland
  North
  Carolina
  Pennsylvania                             14.               15.                    118    10.
  Texas              158     19.           12.               10.                    200     17.


  TOTALS             802    100.    202   100.        158   100.          100.     1170   100.




                                              A- 2

We requested beneficiar payment histories from the carers to (1) identify the surgeons and the
facilties where surgeries were completed and (2) determne all procedures associated with the
entire episode of care, including preoperative tests and postoperative services rendered by
September 30, 1988. We then requested medical records from both the surgeons ' offices and the
facilities (ASCs or OPDs). The medical data included , at a minimum , a record of both pre- and
postoperative care rendered by physicians durg office visits , preoperative test results, copies of
the operative reports , anesthesia reports, x-ray interpretations and any related paperwork
completed durng the surgery.

We identified al services associated with the surgeries, e. g., preoperative ophthalmic tests, and
entered the frequencies and costs into a dBase 111+ progr for further SAS statistical analysis.
For those OPD surgeries where IOLs were not biled to Par B through the carer, we contacted
fiscal intermediares to obtan copies of the claims submitted by the hospitals. When the IOLs
were included in medical supplies or sterile supplies rather than a separate cost center, we called
the hospitals to obtain the biled and allowed amounts.

An independent medical review contractor used physician specialists to develop
procedure-specific criteria. Members of the American Academy of Ophthalmology and the
American Society for Gastrointestinal Endoscopy reviewed the criteria, and their suggestions
were incorporated. The medical reviewers utilized the criteria and completed a narative
assessment for each record. The reviewers assessed each record for medical necessity,
appropriateness of the outpatient setting and quality of care.

First, we eliminated the bunionectomies from all analyses due to the small number included in
the sample. For some of the remaining cases, assessment was impossible when the medical
records were (1) incomplete due to missing information from the surgeon or the facilty or
(2) inadequate due to ilegible or poor documentation. For these undocumented records, the
medical reviewers were unable to assess 9. 9 percent (115 of 1 162 records) for appropriateness
of the outpatient setting, 3. 5 percent (41 of 1 162 records) for medical necessity and 6. 6 percent
(77 of 1 162 records) for quality of care.


Based on infonnation we received from Medicare carers, we identified ophthalmologists who
received more than $1 milion in 1987.  Out of 255 ophthalmologists, 84 performed 178
surgeries in our sample. We analyzed this subset further to identify any differences between the
surgeries completed by the high volume ophthalmologists versus the non- high volume
ophthalmologists in our sample. Table 3 describes demographic data about the sampled ASC and
OPD patients.

In addition , we interviewed representatives of several professional medical associations and a
sample of ASC and OPD physicians in each specialty to identify currently acceptable standards
for medical necessity and quality of care.




                                                A- 3

Table 3 describes demographic data about the sampled ASC and OPD patients.


                                         TABLE 3

                         Demographic Information for Sample

  CHARACTERISTIC                              ASC                            OPD



  AVERAGE AGE (years)                   75.            N/A             76.          N/A


  AGE GROUP
        64 years                                        2.4

     65- 69 years                                      14.
                         15.

     70- 74 years                        167           28.
            136          23.2

     75- 79 years                        142           24.
            156          26.

     80- 84 years                        122           20.
            120          20.

     85+ years
                                                                     11.3

               TOTAL                    585           100.
            585          99.



 SEX

     Female                             380            65.
            375          64.

     Male                               205            35.
            210          35.

               TOTAL                    585           100.
            585         100.



 RACE

     White                               130           22.
            357          61.0
    Black                                                1.0

     Asian

    Other
                                                                           2.4

    Not documented                      444            75.
            180          30.

            TOTAL                       585            99.
            585         100.

 APPENDIX
MEDICAL REVIEW CRITERIA
                                                        APPENDIX 

                                                                 BffLIOGRAPHY

  Abstracts-           Upper GI Endoscopy: Is It Overused?"                             Geriatrics,         February 1989, pp. 98 and 100.

  Agreed: Outpatient PPS by 1991                              Health Policy Week, 
                   May 14 , 1990, p. 3.

  AHA Voices Concerns about HCFA' s Severity Index                                             Hospitals,      October 5, 1988, pp. 26- 28.

  Ambulatory Surgery-Conducting a Feasibilty Analysis for Free- Standing                                                 Ambulatory

         Surgical Centers,              AORN Journal,              December 1986, pp. 1026- 1033.


American Academy of Ophthalology,                                 Dry Eye, 
       March 1988.

American Academy of Ophthalmology,                                 Glaucoma,           March 1984.

American Academy of Ophthalmology, 
                              Laser Surgery of the Eye April1987.

American Academy of Ophthalmology,                                Macular Degeneration, 
                   Februar 1988.
American Academy of Ophthalmology,                                Seeing Well, 
        May 1988.

American Academy of Ophthalmology, " Policy Statement-An Ophthalmologist s Duties
   Concerning Postoperative Care " September 27, 1987.

American College of Surgeons, Socioeconomic Affairs Deparment,                                                   Socio- Economic Factbook
       for Surgery 
        1988, 1988.



American Society for Gastrointestinal Endoscopy, 
                                    Appropriate Use of Gastrointestinal
        Endoscopy,           June 1986.


American Society for Gastrointestinal Endoscopy, 
                                    Preparation of Patients for Gastrointestinal
        Endoscopy,          January 1988.


American Society for Gastrointestinal Endoscopy, 
                                    Some Answers to Questions about
        Colonoscopy and Polypectomy,                          June 1987.



American Society for Gastrointestinal Endoscopy, 
                                    Standards of Practice of Gastrointestinal
        Endoscopy,          March 1986.

American Society for Gastrointestinal Endoscopy, 
                                    Therapeutic Gastrointestinal Endoscopy-An
       Information Resource Manual no date.




                                                                               C-1
   ,"                         ,"     ,"                           , "





 Are Some Surgical Procedures Overpaid,                Health Affairs, 
              Summer 1987 , pp. 124- 130.

 Beneficiares Happy with Outpatient Surgery-Study,                            Modern Healthcare,           Februar 12 ,   1990
        pp. 18, 22.


Berler, David K. , M.    , and Robert Peyser, M. D., "Light Intensity and Visual Acuity Following
        Cataract Surgery, Ophthalmology,  August 1983, pp. 933- 936.

Betz , Robert, "Hospita Outpatient Payment Policy: Beginnings and Endings, Federation of
     American Health Systems Review, 
 November/December 1989, pp. 12- 17.

Brook , Robert H. , M. D., and Kathleen N. Lohr, Ph. D., " Monitoring Quality of Care in the

    Medicare Program-Two Proposed Systems, lAMA December 4 , 1987, pp. 3138- 3141.


 Capital Digest: Ambulatory Surgery Rates May Rise Only 5.                                     Modern Healthcare

     June 3, 1988, p. 18.


Classen , M. and K. Knyrm Electronic Endoscopy-The Latest Technology, Endoscopy,
        1987, pp. 118- 123.


 Committee Claims PRO Data Show Drop in Quality, Hospitals November 20, 1987, p. 36.


 Complexities Likely to Delay Enactment of PPS System for Outpatient Services, Modern

   Healthcare,  November 25, 1988, p. 16.


 Competition Helps Cap Costs Study,       Hospitals,            November 11 ,              1988, p. 5.


 CPT 4 System Puts Additional Burden on Hospitals,                       Hospitals,         May 5 , 1987, p. 30.

 Customer Perception Counts in Quality Assurance, Hospitals January 20, 1989 , p. 84.

Davis, James E., M. D., " The Future of Major Ambulatory Surgery, Surgical Clinics of North
    America,  August 1987 , pp. 893- 901.


Davis, James E., M. D., and Kenneth Sugioka , M. Selecting the Patient for Major
    Ambulatory Surgery- Surgical and Anesthesiology Evaluations, Surgical Clinics of North
    America,  August 1987, pp. 721- 732.

        Surgical Evaluation Surgical CZinics of North America                           August 1987 ,     pp. 721- 731.

DHHS, Office of Inspector General National DRG Validation Study, Quality of Patient Care in
   Hospitals, " July 1989, #OAI- 09- 88- 00870.

DHHS, Offce of Inspector General The Utilzation and Qualty Control Peer Review
   Organization (PRO) Program: Quality Review Activities, " August 1988,
   #OAI- 01- 88- 00570.


                                                          C­
        pp.           ,"                           ,"




 Droste, Therese, " Quality Care: Elusive Concept                 Deserves Defining,             Hospitals,    June 5, 1988,
         pp. 58- 59.

  EPA Should Get Guidelines for Medical Wastes-AH Modern Healthcare,
    August 12 , 1988, p. 29.

  Expert in Error Over Medicare Payment,                Modern Healthcare,                July 22 , 1988, p. 126.

Farber, M. A. and Lawrence K. Altman A Great Hospital in Crsis, The New York Times

    Magazine,   Januar 24, 1988, pp. 18- 21, 38, 40, 50 and 57.


Foulds ,        Wallace S., Chapter I-Tests       of Visual Function         The Eye in General Medicine, 1983,
                    12.

General Accounting Offce, 
           A Comparison of VA and HCFA Methods for Analyzing Patient
        Outcomes,          June 1988, pp. 1­

General Accounting Office, 
            Improved Patient Outcome Analyses Could Enhance Quality
        Assessment             June 1988.


General Accounting Offce, 
             Improving Quality of Care Assessment and Assurance May 1988.

General Accounting Offce, 
             Limited State Efforts to Assure Quality of Care Outside Hospitals,
        Januar 1990.
General Accounting Offce, 
             Medicare Preliminary Strategies for Assessing Quality of Care
        July 1987.



General Accounting Office, 
            Medicare Reviews of Quality of Care at Participating                  Hospitals,
        September 1986.

Goes , F., M. D., Modern Trends in Ophthalmology-roceedings of the 18th European Congress
    of Ophthalmology ECLSO/SOBEVECO: Personal Complications After I. OL. Surgery,
        1989, pp. 179- 189.


Graney, Marshall J., Ph. D., " A Clinical Index for Prdicting Visual Acuity After Cataract
    Surgery, American Journal of Ophthalmology, 
       May 1988, pp. 460- 465.

Hamilton , Jon Specialized Minicenters- Shopping- Mall Medicine, American Health
   March 1988, pp. 106- 111.

 HCFA: Ambulatory Surgery Rates May Hurt Hospitals,                          Hospitals,       July 5, 1987, p. 26.


Health Policy Week November 28, 1988, pp. 1­




                                                           C-3
   , ,"pp.
       "              ,"        ,"




Hedden , Michael and K. Donald Wolfe, "Experience from a New Wave Ambulatory Surgery

    Center Florida Medical Association, 
 June 1987, pp. 411- 416.


Henderson, John A., "Freestanding Centers Gaiing on Surgical Suites, Modern Healthcare

      June 3, 1988 , pp. 84- 87.


       Surgery Centers Continue Makng Inroads, Modern Healthcare May 21 , 1990
      pp. 98- 100.

 HHS Inspector General Report-                    6% of Medicare Patients Said to Receive Poor Care at Costs
      of $1.2 Bilion        Health Daily, 
       August 10, 1988, pp. 1­

Holloway, James J. et al.            Clinical and Sociodemographic Risk Factors for Readmission of
      Medicare Beneficiares, Health Care Financing Review Fall 1988 , pp. 27- 36.

Jaffe, Norman S., M. D., Symposium on Cataract SurgeryTransactions of the New Orleans
     Academy of Ophthalmology: Chapter 24-urgical Results of Cataract and Lens Implant
     Surgery, 1984 , pp. 226- 235.

Jaffe, Norman S., M. D.,        et aI., Chapter I-           The Decision to Operate,       Cataract Surgery and Its
     Complications,        1990, pp. 3- 11.


Jay, J. L. et aI., "Effect of Age on Visual Acuity after Cataract Extraction British Journal of
     Ophthalmology,        1987, (71), pp. 112- 115.


Jennings, LTC Bonnie M. and MAJ Richard A. Sherman, " Anxiety, Locus of Control , and
     Satisfaction in Patients Undergoing Ambulatory Surgery, Miltary Medicine April 1987
         206-208.

John , Maurice E., M.         , and Timothy D. Edsell , B.S., " Advanced                 Versus Immature Cataracts-
     Preliminary Report,          Annals of Ophthalmology,                   June 1989, pp. 222- 224.

Kahn , Katherine et al. Indications for Selected Medical and Surgical Procedures-A Literature
    Review and Ratings of Appropriateness: Diagnostic Upper Gastrointestinal Endoscopy,
    May 1986.

      The Use and Misuse of Upper Gastrointestinal Endoscopy, Annals of Internal Medicine
     October 15, 1988, pp. 664- 670.

Kelman , Charles D., M.              Cataracts: What You               Must Know About Them , 1982.

Kim , Howard Competition Helps Cap Cost Study, Modern Healthcare November 11 , 1988


King, Kathleen M., " Medicare Payment for Services in Hospital Outpatient Departments
    Congressional Research Service August 15, 1989 , pp. 1- 25.



                                                                  C­
   , ," "pp.     ,,""         ,"   ,"




       pp. 86-   87.
 Koska, Mar T. HCFAExamnes Ambulatory Payment Options


        HCFA Monitors Outpatient and Home Care Growth                       Hospitals,
                                                                                           Hospitals,     July 20, 1988


                                                                                                  December 20 , 1988 , p. 27.

        Push Is On for Ambulatory Quality Assurance,           Hospitals,                September 20 , 1988, p. 66.

Krentz, Susanna E. and Maran C. Jennings, "Prcing Strategies for Hospital- Based Ambulatory
       Care Services: Case Study of an Ambulatory Surgery Program Journal of Ambulatory
       Care Management,  August 1986 , pp. 15- 30.

Krger, Sidney H., M. D., et al. A Review of Extracapsular Cataract Extraction and Intraocular

    Lens Implantation Combined with Trabeculectomy, Annals of Ophthalmology, 
     July 1989

        266- 268.

Kroenke, MAJ Kun, M. D., "Preoperative Evaluation: The Assessment and Management of
    Surgical Risk Journal of General Internal Medicine July/August 1987 , pp. 257- 269.



      pp. 150-   153.
Lagoe, Ronald J. , Ph. , and John W. Milliren , Ph. D., " A Community- based Analysis of
    Ambulatory Surgery Utilzation American Journal of Public Health,        February 1986



Larson , Gerald M., M. , et aI., " Evaluation of Endoscopy Training in a General Surgery
    Residency, The American Surgeon, 
     February 1988, pp. 64- 67.

Leaming, David v. , M. D., " Practice Styles and Preferences of ASCRS Members- 1988 Survey,
    Journal of Cataract and Refractive Surgery, 
 November 1989, pp. 689- 697.

Leape, Lucian L.        Unnecessar Surgery, Health Services Research August 1989 , pp. 351- 407.

 Less Money, More Players in Outpatient Market,         Hospitals,              Januar 20, 1989, p. 26.

Lion , Joanna , Ph. , et al. The Case Mix of Ambulatory Surgery as Measured by Ambulatory
     Visit Groups, Journal of Ambulatory Care Management,   February 1990 , pp. 33- 45.

Louden , Teri L., " The Last Word- Customer Perception Counts in Quality Assurance
    Hospitals,  Januar 20, 1989 , p. 84.


Lutz , Sandy, " Changing Rules for Ambulatory Care Reimbursement Fuel Shifts in Industry,
     Modern Healthcare, 
 July 22 , 1988, pp. 58- 59.

      Freestanding Recovery Centers Growing,       Modern Healthcare, 
                      Januar 8, 1988, p. 35.

     Systems Find Ambulatory Care No Longer a Niche, But a Chasm Modern Healthcare,
     May 21 , 1990, pp. 90, 92 and 94.




                                                 C-5
   .,, ""p.                            ," ,"                                        ,"




Margo, Curis E., M. D., " Sounding Board-Sellng Surgery,                                                     The New England Journal of
    Medicine June 12 , 1986 , pp. 1575- 1576.

Mitchell , Janet B. et al., " DataWatch-Are Some Surgical Procedures Overpaid?" Health
        Affairs,        Summer 1987, pp. 121- 131.

Nathanson , Susan N., Ph.                          Ambulatory Surgery-Characteristics                of a Successful Ambulatory
        Surgery Program,                AORN Journal,                      Februar 1988, pp. 592- 593, 596 and 598.
         Ambulatory PPS: More Hospitals Wil Track Costs,                                               Hospitals,      June 5, 1988, p. 106.


 News Digest: Johns Hopkins to Study Quality of Care Modern Healthcare                                                           July 1 ,   1988 , p. 8.

Odom , J. Vernon , Ph.                     Prediction of Post Cataract Extraction Visual Acuity: 10 Hz Visually
   Evoked Potentials                     Ophthalmic Surgery,   March 1988, pp. 212- 218.

Orkand Corporation Comparative Evaluations of Cost, Quality and Systems Effects of
    Ambulatory Surgery Performed in Alternative Settings, December 1977.

 Outpatient Services Examied,                           Hospitals,                 May 22 , 1988, p. 28.

 Outpatient Surgery Prospects Bullish,                                    Health Policy Week, 
           Januar 29, 1990, pp. 3­

Park , Rolla Edward et aI.,                Physician Ratings of Appropriate Indications for Six Medical and
       Surgical Procedures, 1986.

 Payment,            Hospitals,       May 20, 1989, p. 28.

Powils, Suzanne, " Consumers                        Snub Freestanding Surgical Centers,                             Hospitals,    July 20 , 1986
               73.

Prospective Payment Assessment Commission Medicare Payment for Hospital                                                           Outpatient
       Surgery: The Views of the Prospective Payment Assessment Commission                                                       April 1989.


 Regional News Digest,                    Modern Healthcare, 
                       November 18 , 1988 , p. 30.

Robinson, Michele L., " HCFA Finally Sets a 5% Increase for Outpatient Surgery, Hospitals,
    October 20, 1988, p. 27.

        Outpatient Services Examned,                                 Hospitals,           May 20 , 1988, p. 28.

        Renewed Pressure to Cut Outpatient Surgery Costs,                                          Hospitals,       May 20, 1989, p. 18.

Romansky, Michael A. and Diane S. Milman The Prospects for Outpatient Surgery,
       HealthSpan,                August/September 1987 ,                         pp. 8 , 10 20- 22.




                                                                                     C­
    ,, ""pp.        ,"     , ", "    , " ,, ""                  ,"




Sanders, Donald R. , M. D., Ph. OSN Editorial-New Government Study Introduces the

    Eleven Percent Hand Grenade, Ocular Surgery News, 
 March 1 , 1990, pp. 4­


Sappenfield , David L., M. Resident Extracapsular Cataract Surgery: Results and a
    Comparson of Automated and Manual Techniques, Ophthalmic Surgery, 
   September 1989,
        619-624.

Shulman, Julius, M.            Cataracts: The Complete           Guide-FromDiagnosis to RecoveryFor

       Patients and Familes, 1984.


Sonneborn , Charles B. Ambulatory Center Rates and IOL Prcing, Insight Focus
       Februar 1990, pp. 1­
       MD/OD Post-op Care Deemed Equal to Surgical Effort Insight Focus

      Februar 27, 1990, pp. 1­


        The Latest News and Information on Ophthalmics from the Nation s Capital Insight
      Focus,  Februar 28, 1990, pp. 1­

Stetson , Patrcia Ann Hospital- affiliated or Freestanding Units: Which Are Best?"          AORN
      Journal December 1983, pp. 1049- 1050                and 1054.


Sweet, David The Peer Review Process: New Focus, New Directions, Ohio Medicine,
    July 1987 , pp. 464 , 467- 469, 471 and 485.


Terr, Clifford M. , M. , and Peter K. Brown , M. D., " Clinical Measurement of Glare Effect in
     Cataract Patients, Annals of Ophthalmology, 
 May 1989, pp. 183- 187.

Tokarski , Cathy, " Ambulatory Surgery Pay Rates Issued, Modern Healthcare,
  . Februar 12 , 1990, p. 3.

        Complexities Likely to Delay Enactment of PPS Systems for Outpatient Services, Modern
      Healthcare, November 25, 1988 , p. 16.

       Report Predicts Battle Over Ambulatory Surgery Payment, Modern Healthcare
      July 22 , 1988 , p. 30.

Vuori , Hannu, M. D., "Editorial: Patient Satisfaction-An Attrbute or Indicator of the Quality of
    Care?"  QRB March 1987, pp.           108.

Wagner, Lynn and Cathy Tokarski Standardized Guidelines for Treating Medical Conditions
   Slowly Gaining Attention , Suppon Modern Healthcare, 
 Februar 12 , 1990 , p. 37.

Ware, John E. Jr., Ph. D., and Ron D. Hays , Ph.      Methods for Measuring Patient Satisfaction
    with Specific Medical Encounters, Medical Care, 
    April 1988, pp. 393- 402.




                                                           C­
Weiner, Jonathan P. , D. H., et al., "Elective Foot Surgery: Relative Roles of Doctors of
    Podiatrc Medicine and Ortopedic Surgeons, AJPH,          August 1987, pp. 917- 922.

Willamson , Douglas E., M. D., " Ambulatory Cataract Surgery, International Ophthalmology
    Clinics,   Fal 1987, pp. 163- 166.


   , Kent K., M. D., " Mitchell Bunionectomy: An Analysis of Four Hundred and Thiny Personal
     Cases Plus a Review of the Literature, The Journal of Foot Surgery, 
 1987, pp. 277- 292.




                                              C-8
APPENDIX D

AGENCY COMMENTS





      D - 1

                 APPENDIX 

AMERICAN SOCIETY FOR GASTROINTESTINAL ENDOSCOPY LETTER





                         E - 1

